ts
I

OCKLE

2311 Douglas Street CA ; E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B pues contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-1263

GIANINNA GALLARDO, AN INCAPACITATED
PERSON, BY AND THROUGH HER PARENTS AND
CO-GUARDIANS PILAR VASSALLO AND
WALTER GALLARDO,

Petitioner,

v.

SIMONE MARSTILLER, IN HER OFFICIAL CAPACITY
AS SECRETARY OF THE FLORIDA AGENCY
FOR HEALTH CARE ADMINISTRATION,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMERICAN
ACADEMY OF PHYSICIAN LIFE CARE PLANNERS AS AMICUS CURIAE IN SUPPORT OF
NEITHER PARTY in the above entitled case complies with the typeface requitement of Supreme
Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point
for the footnotes, and this brief contains 2473 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 22nd day of September, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths.

prmemaien| Kone. Looa Ondian-th Chel

My Comm. Exp. September 5, 2029
Notary Public Affiant 41453

 
